                                                                         MINE SAFETY AND HEALTH

U.S. Department of Labor                                                 ADMINISTRATION


                           Office of Inspector General—Office of Audit




                                                                         MSHA HAS IMPROVED ITS ROOF CONTROL
                                                                         PLAN REVIEW AND MONITORING PROCESS BUT
                                                                         COULD DO MORE




                                                                                             Date Issued:     March 29, 2013
                                                                                          Report Number:    05-13-002-06-001
U.S. Department of Labor                                    March 2013
Office of Inspector General
                                                            MSHA HAS IMPROVED ITS ROOF CONTROL
Office of Audit
                                                            PLAN REVIEW AND MONITORING PROCESS
                                                            BUT COULD DO MORE

BRIEFLY…                                                    WHAT OIG FOUND
Highlights of Report Number 05-13-002-06-001, issued        The OIG found that MSHA’s processes for reviewing,
to the Assistant Secretary for Mine Safety and Health.      approving, and overseeing coal mine roof control plans
                                                            have improved since our 2008 report because MSHA
WHY READ THE REPORT                                         has developed guidance and checklists for reviewing
The Assistant Secretary for Mine Safety and Health is       and approving roof control plans; performed roof control
responsible for ensuring that the office of Coal Mine       plan reviews more frequently and undertook an effort to
Safety and Health reviews and approves roof control         re-examine all roof control plans in effect at the time of
plans for coal mines. Roof control plans identify how       the 2008 audit; issued policy regarding non-rescue
mines intend to control or prevent shifting of the roof,    activities and personnel on site during active rescue
face, or ribs and collapses, such as the one that           operations; and established a Memorandum of
occurred in the Crandall Canyon Mine.                       Understanding with the Bureau of Land Management to
                                                            ensure information on mine conditions is shared.
The Office of Inspector General (OIG) conducted a
follow-up audit of audit report number 05-08-003-06-        However, despite these efforts, we found:
001, “MSHA Could Not Show It Made the Right
Decision in Approving the Roof Control Plan at Crandall        Districts still operated under incomplete Roof
Canyon Mine,” which assessed the Mine Safety and                Control Plan Standard Operating Procedures
Health Administration’s (MSHA) process for reviewing,           (SOPs);
approving, and overseeing the Crandall Canyon Mine’s           District Managers did not always document the
roof control plan.                                              rationale for their roof control plan decisions; and
                                                               Enforcement personnel monitoring activities lacked
WHY OIG CONDUCTED THE AUDIT                                     required documentation.
As part of our oversight responsibilities, we performed
this follow-up audit to determine if MSHA’s actions in      In its response, MSHA disagreed with the OIG’s
response to the OIG’s 2008 audit report improved the        interpretation of certain policies, but agreed to revise
coal mine roof control plan review, approval, and           them to clarify their intent. MSHA also believes that the
oversight processes.                                        documentation issues identified by the OIG were
                                                            administrative in nature, and that the agency has
The OIG’s 2008 audit made 9 recommendations to              significantly improved its performance with respect to
MSHA. These included: (1-5) developing a rigorous,          roof control plan approvals and monitoring, as
standard, and transparent process for the evaluation        evidenced by the decrease in accidents related to this
and approval of roof control plans, including active        type of cause. MSHA also stated that it took proactive
management oversight; (6) requiring inspectors to           efforts by including specific training for inspectors and
document the work they perform in effectively               continuing training for roof control specialists.
questioning miners on mining activities and conditions
in the mines; (7) issuing a policy on allowing non-rescue   WHAT OIG RECOMMENDED
activities and personnel on site during active rescue       The OIG recommended that the Assistant Secretary for
operations: (8) establishing a Memorandum of                Mine Safety and Health make improvements in the
Understanding with the Bureau of Land Management;           areas of developing policies and procedures,
and (9) conducting a new review, consistent with these      implementing SOPs, and training. MSHA said it agreed
recommendations of all existing roof control plans.         with the recommendations and recently overhauled its
                                                            centralized directives functions. MSHA will also clarify
READ THE FULL REPORT                                        documentation guidance of inspections and
To view the report, including the scope, methodology,       investigations and will provide training to individuals
and full agency response, go to:                            involved in the roof control plan review and approval
http://www.oig.dol.gov/public/reports/oa/2013/05-13-        process. MSHA disagreed that controls must be
002-06-001.pdf.                                             included in district SOPs because it is a major
                                                            undertaking in a time of limited resources.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            Roof Control Plan Review & Monitoring
                                    Report No. 05-13-002-06-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Have MSHA’s actions in response to the OIG’s 2008 audit report improved
the coal mine roof control plan review, approval, and oversight processes?................... 4
         MSHA has improved its processes, but could do more to improve its policy
           process and documentation.

         Finding 1 — CMS&H Districts used incomplete coal mine roof control plan
            SOPs. .............................................................................................................. 4
         Finding 2 — District Managers could not support their rationale for all roof
            control plan decisions. ..................................................................................... 6
         Finding 3 — MSHA Enforcement Personnel Did Not Document All
            Required Roof Control Plan Monitoring Activities............................................ 7

Recommendations ...................................................................................................... 10

Appendices
         Appendix A Background ..................................................................................... 13
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 15
         Appendix C Acronyms and Abbreviations .......................................................... 19
         Appendix D MSHA Response to Draft Report .................................................... 21
         Appendix E Acknowledgements ......................................................................... 33




                                                                                 Roof Control Plan Review & Monitoring
                                                                                         Report No. 05-13-002-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            Roof Control Plan Review & Monitoring
                                    Report No. 05-13-002-06-001
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


March 29, 2013

                        Assistant Inspector General’s Report

Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Blvd.
Arlington, VA 22209

On August 6, 2007, a roof collapsed at the Crandall Canyon Mine in Emery County,
Utah, resulting in the deaths of 6 miners and 3 rescue workers. On March 31, 2008, the
Office of Inspector General (OIG) issued audit report number 05-08-003-06-001, “MSHA
Could Not Show It Made the Right Decision in Approving the Roof Control Plan at
Crandall Canyon Mine,” which assessed the Mine Safety and Health Administration’s
(MSHA) process for reviewing, approving, and overseeing the Crandall Canyon Mine’s
roof control plan (see Appendix A for summaries of the 9 report recommendations). The
report mainly found MSHA needed to improve its operating procedures, especially those
related to documenting the results of roof control inspections. As part of our oversight
responsibilities, we performed this follow-up audit to answer the following question:

      Have MSHA’s actions in response to the OIG’s 2008 audit report
      improved the coal mine roof control plan review, approval, and oversight
      processes?

We selected 176 of the 3,483 roof control plans or revisions MSHA reviewed during
Fiscal Years (FY) 2011 and 2012, covering 6 of the 12 coal mining District Offices
(Districts). For these 176 roof control plans, we reviewed documentation for MSHA’s
review of those roof control plans, Safety and Health Inspections (E01), and Roof
Control Technical Investigations (E20). We also reviewed federal laws and regulations
and Coal Mine Safety and Health (CMS&H) policies and procedures; interviewed key
CMS&H Headquarters, District, and Field Office officials; and analyzed and identified
key processes and critical decision and control points. We did not perform any audit
work on recommendations 7 and 9 from our 2008 audit report because they did not
directly address the roof control plan review and approval process.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


                                                               Roof Control Plan Review & Monitoring
                                             1                      Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General



Results In Brief

MSHA’s processes for reviewing, approving, and overseeing coal mine roof control
plans have improved since our 2008 report because MSHA developed guidance and
checklists for reviewing and approving roof control plans; performed roof control plan
reviews more frequently and undertook an effort to re-examine all roof control plans in
effect at the time of the 2008 audit; issued policy regarding non-rescue activities and
personnel on site during active rescue operations; and established a Memorandum of
Understanding with the Bureau of Land Management to ensure information on mine
conditions is shared. However, despite these significant efforts, we found:

      1) Districts still operated under incomplete Roof Control Plan Standard
         Operating Procedures (SOPs);
      2) District Managers did not always document the rationale for their roof
         control plan decisions; and
      3) Enforcement personnel monitoring activities lacked required
         documentation.

Incomplete Roof Control Plan Standard Operating Procedures

Our 2008 report recommended MSHA develop a standard and transparent process for
evaluating and approving proposed coal mine roof control plans. Although MSHA
created new policies, criteria, and guidance, its process is still not standard or
transparent because MSHA has not updated the Program Policy Manual (Manual) or
developed any other comprehensive roof control handbook. As a result, CMS&H
Districts do not have access to a centralized repository from which to accurately update
their roof control plan SOPs.

Our 2008 report also found that none of the Districts addressed all twenty controls
required by the Manual for the plan and program approval process. Similarly, this audit
found only two of the twelve Districts included all twenty controls in their SOPs.

District Managers’ rationale not always documented

Our 2008 report recommended MSHA issue policy requiring District Managers to
maintain documentation supporting their conclusions whenever they decided a plan
would provide effective roof control. Therefore, in June 2008, MSHA supplemented the
transmittal sheets it was already using with checklists that District Managers could have
used to explain their rationale for roof control plan approvals. Despite this guidance, we
found almost one-fifth of roof control approvals we reviewed lacked complete transmittal
sheets or checklists.




                                                          Roof Control Plan Review & Monitoring
                                            2                  Report No. 05-13-002-06-001001
                                                  U.S. Department of Labor – Office of Inspector General



Enforcement personnel monitoring activities lacked documentation

Our 2008 report recommended MSHA require inspectors to document their questioning
of miners on mining activities and mine conditions; the basis for their conclusions on the
continued adequacy of coal mine roof control plans, as well as the completion rates and
adequacy of miner training on such plans. As a result, on June 3, 2008, CMS&H issued
a memorandum requiring inspectors to document their discussions with miners on the
completeness and adequacy of their training. Despite this requirement, MSHA could not
provide us documentation of such discussions for two-thirds of the E01 inspections and
one-third of the E20 investigations we reviewed. 1

We made recommendations to MSHA to make improvements in the areas of developing
policies and procedures, implementing SOPs, and providing training.

MSHA Response

In response to the draft report, the Assistant Secretary disagreed with the OIG’s
interpretation of MSHA’s policy regarding the twenty controls referenced later in this
report; nonetheless, MSHA agreed to revise this policy to clarify its intent. MSHA agreed
that District SOPs and management systems need to be updated to incorporate new
guidance.

MSHA believes the OIG’s findings centered on administrative documentation issues,
such as verifying that forms and checklists were completed. Instead of concentrating on
documentation, MSHA claims it focused on implementing effective plans and proactive
actions to prevent mining deaths and injuries.

MSHA said it changed its directives system effective March 22, 2013, and will assess
how to streamline the guidance and address District SOP. MSHA also agreed with or
agreed with the spirit of the other recommendations and will take steps to implement
them.

OIG Conclusion

Based on our reading of MSHA’s policy, we stand by our interpretation that it mandates
certain controls be included in all District SOPs. If MSHA had intended a different
interpretation, it should have made this clear when the policy was issued. If we could
not determine MSHA’s actual intent, then neither could the Districts.

While we agree that the OIG’s audit work focused on documentation, we did so
because documentation represents the only evidence that a task was completed.
Absent documentation, MSHA cannot be certain that inspectors performed all required


1
  An E01 is a Regular Safety and Health Inspection that MSHA inspectors are required to conduct four
times a year and an E20 Is a Roof Control Technical Investigation that a specialist conducted on an ad
hoc basis.

                                                                  Roof Control Plan Review & Monitoring
                                                    3                  Report No. 05-13-002-06-001001
                                                   U.S. Department of Labor – Office of Inspector General



tasks. The fact that MSHA believes the focus should be on results does not excuse
Districts from completing documentation to support their decisions.

RESULTS AND FINDINGS

Objective — Have MSHA’s actions in response to the OIG’s 2008 audit report
             improved the coal mine roof control plan review, approval, and
             oversight processes?

       MSHA has improved its processes, but could do more to improve its policy
       process and documentation.

As of March 16, 2012, MSHA had taken corrective action on all of the recommendations
from our 2008 audit report. 2 The corrective actions improved MSHA’s processes for
reviewing, approving, and overseeing coal mine roof control plans. Specifically, MSHA
developed guidance and checklists for reviewing and approving roof control plans;
performed roof control plan reviews more frequently and initiated an effort to re-examine
all roof control plans in effect at the time of the 2008 audit; issued policy regarding
non-rescue activities and personnel on site during active rescue operations; and
established a Memorandum of Understanding with the Bureau of Land Management to
ensure information on mine conditions is shared. However, MSHA needed to do more
because CMS&H’s Districts were using incomplete roof control plan SOPs, District
Managers could not always support their rationale for roof control plan decisions, and
enforcement personnel did not always document their roof control plan monitoring
activities.

Finding 1 — CMS&H Districts used incomplete coal mine roof control plan SOPs.

Since our 2008 report, MSHA has not: (1) updated its Manual; (2) ensured Districts
updated their SOPs to include the 20 controls required by the Manual; or (3) ensured
Districts updated their SOPs to include all new or revised policies.

MSHA has not updated its Program Policy Manual

MSHA has not updated its Manual since February 2003. Since our 2008 report, CMS&H
has issued numerous Program Information Bulletins (PIBs), Program Policy Letters
(PPLs), Technical Papers, Memos, and Procedure Instruction Letters (PILs) that
addressed roof control issues and policies. However, MSHA has not updated the
Manual to include any of these changes. 3



2
  MSHA Could Not Show it Made the Right Decision in Approving the Roof Control Plan at Crandall
Canyon Mine (Report No. 05-08-003-06-001).
3
  The scope of our audit was limited to procedures relating to the roof control plan approval process;
therefore, any references to MSHA or Districts’ policies and procedures refer only to those related to the
roof control plan approval process.

                                                                    Roof Control Plan Review & Monitoring
                                                     4                   Report No. 05-13-002-06-001001
                                                    U.S. Department of Labor – Office of Inspector General




District SOPs did not always include the 20 controls required by the Manual

MSHA’s Manual required that each District’s SOPs address 20 controls necessary for
proper administration of the roof control plan approval process. The Manual stated
these 20 controls “must be developed and written for each District” and “accomplish the
following [list of 20 controls].” Senior MSHA officials told us these 20 controls were
optional because the Manual said they should be “accomplished.” However, we believe
MSHA was arguing semantics and that the 20 controls were mandatory.

Our 2008 report found none of the Districts addressed all 20 controls. Therefore, we
recommended MSHA develop a rigorous, standard, and transparent process to identify
tasks, analyses, and information required for Districts to evaluate and approve proposed
coal mine roof control plans. 4 MSHA concurred and agreed to develop standard,
detailed, and comprehensive national checklists to assist District Managers in
documenting decisions for all roof control plans.

However, in this follow-up audit, we found only 2 of the 12 Districts’ SOPs included all
20 controls. On average, the Districts addressed only 16 of the 20 minimum controls.
MSHA issued a memorandum on June 6, 2008, 5 setting forth the roof control plan
approval process. The memorandum included various checklists for roof control plan
reviews. MSHA told us these checklists addressed 12 of the 20 controls and partially
met the Manual’s 20-control requirement when used. 6 While this was true, the SOPs
remained incomplete and did not comply with MSHA’s Manual since it required District
SOPs to include all 20 controls. Moreover, MSHA considered the June 6, 2008,
memorandum as optional guidance, not requiring compliance by the Districts.

District SOPs did not always include new or revised policies

Each District developed its own SOPs for reviewing roof control plans; however, MSHA
Headquarters did not review or approve these District SOPs. Without Headquarters
oversight, the various Districts’ SOPs were often improperly drafted because they were
inconsistent, did not include all 20 controls, and relied on outdated criteria.

The risk associated with roof control during coal mining requires the highest degree of
care, scrutiny, and transparency in MSHA’s process for reviewing and monitoring roof
control plans. Improperly drafted SOPs do not allow the Districts to effectively manage
the roof control review and oversight processes. Without a central policy repository and
a centralized policy and procedure review process, CMS&H Districts risk having
inconsistent, incomplete, and outdated SOPs.


4
  Recommendation 1.
5
  CMS&H Memo No. HQ-08-059-A (PRT-75).
6
  In our fieldwork, we did not ascertain whether or not the Districts actually applied the 12 controls in the
checklists. Our objective was to determine if MSHA responded to the intent of our 2008 recommendation.

                                                                     Roof Control Plan Review & Monitoring
                                                      5                   Report No. 05-13-002-06-001001
                                                   U.S. Department of Labor – Office of Inspector General



Finding 2 — District Managers could not support their rationale for all roof control
              plan decisions.

Despite guidance, standardized checklists, and forms provided by CMS&H, District
Managers did not consistently use or maintain documentation to explain their decisions
for coal mine roof control plans. This occurred because MSHA had not updated its
Manual and Districts had not updated their SOPs to include all mandatory policies and
procedures.

Our 2008 report recommended MSHA issue a policy requiring District Managers to
maintain documentation supporting their conclusions whenever they decided a plan
would provide effective roof control. 7 Therefore, on June 6, 2008, CMS&H issued a
memorandum 8 to all District Managers that explained the importance of justifying their
rationale and included forms and checklists they could use to help document the basis
for their decisions.

Despite MSHA’s efforts, the conditions we identified in 2008 still existed during the
course of this audit. Of the 176 coal mine roof control plan decision files we reviewed,
31 (18 percent) had incomplete or missing transmittal sheets or checklists, meaning
they lacked supporting documentation for the rationale behind roof control plan
decisions. Three of the files we reviewed had 2 issues each, for a total of 34 exceptions.


                             Incomplete and Missing Documentation

                                                                Documentation
                             Element                                                     Total
                                                            Incomplete 9     Missing

          Certified Transmittal Letter (Section D)                5              0          5

          Quarterly Roof Control Plan Review                      0              1          1

          Six-Month Roof Control Plan Review                      0              2          2

          Roof Control Approval Process                           1            21 10       22

          Evaluation of Extended Cuts                             0              4          4

          TOTAL                                                   6             28         34


Additionally, of the 176 roof control plan submissions we reviewed, mine operators
withdrew 13 and CMS&H Districts disapproved 20 (not included in the table above).
7
  Recommendation 5.
8
  Memo No. HQ-08-059-A (PRT-75).
9
  Incomplete documentation consisted of items such as checkboxes not completed, missing signatures, or
other administrative controls.
10
   The District 8 office does not use checklists or maintain documentation to support the roof control plan
addendum decision rationale.

                                                                   Roof Control Plan Review & Monitoring
                                                    6                   Report No. 05-13-002-06-001001
                                                  U.S. Department of Labor – Office of Inspector General



CMS&H did not require District Managers to maintain supporting documentation for
plans that had been withdrawn or disapproved. However, the Districts did not apply this
policy consistently. We found documentation in about half (9 out of 20) of the
disapproved cases. While we agree MSHA does not need to maintain documentation
when an operator voluntarily withdraws its plan and while we make no formal
recommendation to this effect, we believe maintaining a written record of the
decision-making process in disapproved cases would be beneficial. MSHA has no
official record of the disapproval other than the letter it sends to the mine operator and
no way to audit the decision-making process if the documentation is discarded after
review.

Finding 3 — MSHA Enforcement Personnel Did Not Document All Required Roof
             Control Plan Monitoring Activities.

CMS&H enforcement personnel (inspectors and roof control specialists) did not always
comply with MSHA policies and procedures related to coal mine roof control plan
monitoring activities. Specifically, enforcement personnel did not always document
discussions with miners or their observations of mine roof/rib conditions. This occurred
because the CMS&H Districts did not update their SOPs and MSHA did not update its
Manual to include new criteria issued since 2008. It is imperative for enforcement
personnel to have up-to-date policies and procedures in a centralized source to
adequately perform their jobs.

Our 2008 report stated that MSHA did not ensure approved plans were properly
implemented or adjusted because:

     •   None of the inspectors’ notes for the inspections conducted at Crandall Canyon
         from December 2006 through July 2007 indicated that an inspector questioned
         miners about their training or about their knowledge of changes to the roof
         control plan; and

     •   Inspectors did not document their actual observations relative to the roof control
         plan requirements.

In 2008, we recommended MSHA require inspectors to document: (a) their questioning
of miners on mining activities and conditions; and (b) the basis for their conclusions on
the continued adequacy of coal mine roof control plans and on the completion rates and
adequacy of miner training on such plans. 11 MSHA concurred with the recommendation
and on June 3, 2008, CMS&H issued a memorandum 12 to reinforce documentation
elements related to roof control plans. Enforcement personnel, as part of their E01
inspections or during E20 investigations, 13 were to:

11
   Recommendation 6.
12
   CMS&H Memo No. HQ-08-055-A (ORM-8).
13
   An E01 is a Regular Safety and Health Inspection that MSHA inspectors are required to conduct four
times a year and an E20 Is a Roof Control Technical Investigation that a specialist conducted on an ad
hoc basis.

                                                                  Roof Control Plan Review & Monitoring
                                                   7                   Report No. 05-13-002-06-001001
                                                         U.S. Department of Labor – Office of Inspector General




   •   Question miners and discuss current mining activities and conditions to
       determine the basis for existing roof control plan protections and whether the roof
       control plan was adequate given current mining activities and conditions; and

   •   Question miners to determine if their training on roof control plans was completed
       and adequate.

Despite this memorandum, the conditions we identified in 2008 still existed during the
course of this audit. MSHA never updated the General Coal Mine Inspection
Procedures and Inspection Tracking System handbook. In addition, the Districts did not
update their SOPs to include the requirements in the memorandum.

We found enforcement personnel were not always documenting discussions with
miners in their field notes. Of the 123 E01 inspection notes we reviewed, two-thirds did
not document the enforcement personnel’s discussion with miners about roof control
plan training. Other issues included no documentation of discussions with miners
regarding current mining activities and conditions; no evidence of supervisory reviews;
and no evidence of the enforcement personnel’s roof/rib observations. To its credit,
however, MSHA reviewed roof control plans during E01 inspections twice as often as
required by law – four times per year.

         E01 Inspection Notes Lacked Documentation of Monitoring Activities
           E01 Inspections
              Reviewed                               Deficiency
        Number Percentage
                               Enforcement personnel did not document
        83        67%          discussions/questions with miners regarding roof
                               control plan training
                               Enforcement personnel did not document
        18        15%          discussions/questions with miners regarding
                               current mining activities/conditions
                               The supervisor did not sign and date the First-Line
        12        10%
                               Supervisor E01 Certification
        15        12%          Other Issues*
        91        74%          Number of E01 inspections with an exception(s)
        123                    Total Number of E01 Inspections Reviewed
        * Other issues identified were unsigned and dated MSHA Form 2000-204; no mine file review date
        documented; no observation of roof/rib control documented; and no supervisory review of inspection notes
        documented.


We identified similar issues with the E20 investigations. Of the 88 E20 investigation
notes we reviewed, one-third did not document the enforcement personnel’s discussion




                                                                             Roof Control Plan Review & Monitoring
                                                           8                      Report No. 05-13-002-06-001001
                                                   U.S. Department of Labor – Office of Inspector General



with miners regarding coal mine roof control plan training. 14 Investigation notes were
also missing from the records of the enforcement personnel’s discussions with miners
regarding current mining activities and conditions for 18 (20 percent) of the E20
investigations we reviewed. Because of the lack of documentation, we could not
determine if enforcement personnel evaluated the adequacy of roof control plans during
their investigations.

           E20 Investigation Notes Lacked Documentation of Monitoring Activities
            E20 Investigations
                 Reviewed                               Deficiency
          Number Percentage
                                  Enforcement personnel did not document
          29         33%          discussions/questions with miners regarding roof
                                  control plan training
                                  Enforcement personnel did not document
          18         20%          discussions/questions with miners regarding current
                                  mining activities/conditions
                                  Enforcement personnel did not document roof
          8          9%
                                  control plan evaluations
                                  The date of the mine file review was not
          9          10%
                                  documented
          35         40%          Number of E20 investigations with an exception(s)
          88                      Total Number of E20 Investigations Reviewed

Documentation is important because it serves as evidence a task was performed. While
MSHA took actions to improve its roof control monitoring and review processes since
the Crandall Canyon roof collapse, MSHA did not consistently document some aspects
of roof control plans reviews. As a result, it cannot positively demonstrate in many cases
that miners received adequate roof control plan training or that enforcement personnel
assessed the adequacy of roof control plans based on current mining activities and
conditions.




14
  According to MSHA, enforcement personnel may not always have the opportunity to hold discussions
with miners if, for example, no miners are present in the area. This may be particularly applicable to E20
investigations because these may involve a specific issue and not an overall inspection of a mine. We
included all instances where no discussion was documented because MSHA’s policy provides for no
exceptions to the requirement to hold discussions.

                                                                   Roof Control Plan Review & Monitoring
                                                     9                  Report No. 05-13-002-06-001001
                                         U.S. Department of Labor – Office of Inspector General



RECOMMENDATIONS

We recommend the Assistant Secretary for Mine Safety and Health:

      1. Develop a centralized policy and procedure process for all program areas
         that:
         • requires Districts to update SOPs for all new or revised guidance;
         • includes a review of new or updated District-issued SOPs; and
         • incorporates a periodic review of all Districts’ SOPs to ensure they include
            all mandated policies;

      2. Require Districts to immediately implement steps that ensure:
         • roof control plan files contain complete documentation to support the
           rationale for roof control plan decisions;
         • E01 and E20 documentation includes all required activities; and

      3. Ensure future training for roof control personnel involved in reviewing,
         approving, and monitoring roof control plans includes file documentation
         requirements and documentation of required discussions with miners.

We appreciate the cooperation and courtesies MSHA personnel extended us during this
audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General for Audit




                                                        Roof Control Plan Review & Monitoring
                                          10                 Report No. 05-13-002-06-001001
             U.S. Department of Labor – Office of Inspector General




Appendices




                            Roof Control Plan Review & Monitoring
              11                 Report No. 05-13-002-06-001001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            Roof Control Plan Review & Monitoring
              12                 Report No. 05-13-002-06-001001
                                                 U.S. Department of Labor – Office of Inspector General



                                                                                         Appendix A
Background

On March 31, 2008, the OIG issued an audit report titled, “MSHA Could Not Show it
Made the Right Decision in Approving the Roof Control Plan at Crandall Canyon Mine.”
The report found that MSHA was negligent in carrying out its responsibilities to protect
the safety of miners. Specifically, the OIG found that MSHA did not have a rigorous,
transparent review and approval process for roof control plans consisting of explicit
criteria and plan evaluation factors, appropriate documentation, and active oversight
and supervision by Headquarters and [Coal] District 9 management. Further, MSHA did
not ensure that subsequent inspections assessed compliance with, and the
effectiveness of, approved plans in continuing to protect miners.

The OIG made nine recommendations to MSHA, summarized 15 as follows:

        Develop a rigorous, standard, and transparent process for the evaluation and
         approval of roof control plans, including active management oversight. This
         includes: (1) establishing policy requiring risk assessments prior to plan approval;
         (2) establishing criteria for assessing the quality of, and potential safety risk
         associated with, proposed plans; (3) issuing guidance on the use of computer
         models; and (4) issuing a policy mandating active oversight by District Managers
         by requiring documentation to support their conclusions. (Recommendations 1-5)

        Require inspectors to document the work they perform in effectively questioning
         miners on mining activities and conditions in the mine, and their basis for
         concluding on the continued adequacy of roof control plans and the completion
         and adequacy of miner training on such plans. (Recommendations 6)

        Issue a policy on allowing non-rescue activities and personnel on site during
         active rescue operations. (Recommendation 7)

        Establish a Memorandum of Understanding with the Bureau of Land
         Management to share inspection or other information on mine conditions
         affecting safety. (Recommendation 8)

        Conduct a new review, consistent with these recommendations of all existing roof
         control plans. (Recommendation 9)

MSHA concurred with the OIG’s recommendations and took corrective actions. All
recommendations have been closed by the OIG.



15
   Our current audit was geared toward roof control plan approval and monitoring activities. We did not
perform testing related to allowing non-rescue personnel and activities (Recommendation 7) and
conducting a review of all existing roof control plans (Recommendation 9) because they were not relevant
to MSHA’s review, approval, and oversight of roof control plans.

                                                                 Roof Control Plan Review & Monitoring
                                                  13                  Report No. 05-13-002-06-001001
                                                     U.S. Department of Labor – Office of Inspector General



The purpose of MSHA is to prevent death, disease, and injury from mining and to
promote safe and healthful workplaces for the nation’s miners. To assist in achieving
this purpose, MSHA reviews and approves roof control plans submitted by all
underground coal mine operators as required by the Federal Mine Safety and Health
Act of 1977 (Mine Act), Section 302, and Title 30 of the Code of Federal Regulations
(30 CFR), Part 75.220. Further, 30 CFR Parts 75.222 and 75.223 provide the criteria to
be used when approving initial roof control plans and revisions.

Roof control plans identify the methods used in a mine to control and prevent the
collapse or shifting of the roof, face, or ribs in underground mines. Each underground
coal mine operator must develop and follow a roof control plan that is suitable to the
prevailing geological conditions, and the mining system to be used at the mine. This
proposed plan, and any subsequent revisions, is submitted in writing, to the MSHA
District Manager. MSHA policy states that this approval authority is not to be re-
delegated. Roof control plans for each mine are to be reviewed every six months.

CMS&H, a program area within MSHA, is responsible for enforcing the Mine Act at all
coal mining operations in the United States. This includes reviewing, approving, and
monitoring roof control plans submitted by mine operators. CMS&H is headquartered in
Arlington, VA, and consists of 12 Districts and 45 Field Offices with 1,187 staff 16. During
calendar year 2011, there were over 1,900 coal mines located in 26 states throughout
the United States. CMS&H received $164.5 million for its FY 2012 budget –
approximately a 2.58 percent increase over its FY 2011 budget ($160.4 million).

Within MSHA, the Directorate of Technical Support (Tech Support) provides
engineering and scientific expertise to assist MSHA, the states, and the mining industry
in the resolution of safety and health issues. Tech Support provides roof control
engineering support and technical assistance through the Pittsburgh Safety and Health
Technology Center Roof Control Division, located in Bruceton, Pennsylvania. This
division: (1) provides engineering and geological technical services concerning the
evaluation of roof support systems; (2) maintains specialized laboratories for the testing
of roof support products; and (3) monitors the applications of automated-temporary-roof
support systems, cabs, and canopies to mining equipment.

The failure of underground coal mines to have an approved roof control plan has
remained on MSHA’s Top Twenty Most Frequently Cited Standards list since 2007.
From January 2007 through September 2012, there were 15 roof fall fatalities.




16
     Unless otherwise stated, all information presented refers to FY 2012.

                                                                     Roof Control Plan Review & Monitoring
                                                      14                  Report No. 05-13-002-06-001001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Have MHSA’s actions in response to the OIG’s 2008 audit report improved the coal
mine roof control plan review, approval, and oversight processes?

Scope

We audited MSHA’s review, approval, and oversight of all roof control plans or revisions
to previously-approved roof control plans submitted and reviewed as mandated by the
Mine Act and other federal laws and regulations for underground CMS&H mines during
FYs 2011 and 2012. In addition, we reviewed MSHA’s documentation for the most
current regular safety and health inspection (E01) and roof control investigation (E20).

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To determine MSHA’s roof control plan review, approval, and oversight processes, we
reviewed MSHA’s policies and procedures, Districts’ SOPs, checklists, Program
Information Bulletins, Program Policy Letters, Technical Papers, Memos, and Procedure
Instruction Letters and interviewed key CMS&H Headquarters, District Office, and Field
Office officials.

To determine if policies and procedures were consistent, we: 1) obtained MSHA policies
and procedures, CMS&H District Office SOPs, and the checklists for roof control plan
approvals; 2) compared and analyzed the policies and procedures used to evaluate and
approve roof control plans; and 3) determined if these policies and procedures
adequately address the 2008 report’s recommendations.

To determine if CMS&H is adequately evaluating roof control plans, we tested a sample
of roof control plans to verify if MSHA evaluated each roof control plan to ensure it
complies with Federal requirements and MSHA policies and procedures.

We used a two-stage cluster sampling approach to select a sample of 176 from the
3,483 roof control plans or revisions MSHA reviewed during FYs 2011 and 2012. In the
first stage, we classified the twelve CMS&H Districts into three strata based on
geographic location. Strata 1 and 2 consisted of five Districts each and stratum 3
consisted of two Districts. We randomly selected two Districts from each stratum for a

                                                         Roof Control Plan Review & Monitoring
                                           15                 Report No. 05-13-002-06-001001
                                             U.S. Department of Labor – Office of Inspector General



total of six Districts. In the second stage, we classified each selected District Office into
two strata based on the type of roof control plan, basic or complex. We selected a
random statistical sample of roof control plans from each stratum.

To determine if CMS&H is adequately monitoring roof control plans, we tested a sample
of E01 inspections and E20 investigations. We reviewed the most recent E01 inspection
and E20 investigation (if applicable) conducted at the mines in our sample. For each
inspection or investigation, we analyzed how CMS&H inspectors or specialists
documented their review of the roof control plan (e.g., inspection or investigation notes,
MSHA Form 2000-204, etc.).

Data Reliability

To determine the reliability of MSHA’s roof control plan data for selecting our sample,
we: 1) identified specific data elements from the MSHA Standardized Information
System (MSIS) that were critical to supporting our audit analyses; 2) obtained the
universe of roof control plans received during FYs 2011 and 2012; 3) obtained the
number of coal mines with roof control plans in each CMS&H District Office for
FYs 2011 and 2012; 4) developed and completed steps to assess the completeness
and accuracy (i.e., reliability) of the universe; and 5) followed up with CMS&H officials to
address discrepancies identified.

Internal Controls

In planning and performing our audit, we considered MSHA’s internal control relevant to
our audit objectives by obtaining an understanding of those controls, and assessing risk
for the purpose of achieving our objectives. The objective of our audit was not to provide
assurance of the internal control; therefore, we did not express an opinion on MSHA’s
internal control. Our consideration of internal control for reviewing, approving, and
monitoring coal mine roof control plans would not necessarily disclose all matters that
might be significant deficiencies. Because of the inherent limitations on internal control,
or misstatements, noncompliance may occur and not be detected.

Criteria

      Federal Mine Safety and Health Act of 1977, Section 302

      Title 30 Code of Federal Regulations, Parts 75.220 through 75.223

      MSHA Program Policy Manual, Volume V (February 2003)

      MSHA General Coal Mine Inspection Procedures and Inspection Tracking
       System Handbook, January 2008

      CMS&H Memo No. HQ-08-055-A (ORM-8), June 3, 2008



                                                            Roof Control Plan Review & Monitoring
                                              16                 Report No. 05-13-002-06-001001
                                       U.S. Department of Labor – Office of Inspector General



   CMS&H Memo No. HQ-08-059-A (PRT-75), June 6, 2008

   General Accounting Office, Standards for Internal Control in the Federal
    Government, November 1999




                                                      Roof Control Plan Review & Monitoring
                                        17                 Report No. 05-13-002-06-001001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            Roof Control Plan Review & Monitoring
              18                 Report No. 05-13-002-06-001001
                                     U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations

BLM             Bureau of Land Management

CMS&H           Coal Mine Safety and Health

Districts       District Offices

FY              Fiscal Year

Manual          Program Policy Manual

Mine Act        Federal Mine Safety and Health Act of 1977

MSHA            Mine Safety and Health Administration

OIG             Office of Inspector General

PIB             Program Information Bulletins

PIL             Procedure Instruction Letters

PPL             Program Policy Letters

SOP             Standard Operating Procedures




                                                    Roof Control Plan Review & Monitoring
                                      19                 Report No. 05-13-002-06-001001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                            Roof Control Plan Review & Monitoring
              20                 Report No. 05-13-002-06-001001
                                                                U.S. Department of Labor – Office of Inspector General



                                                                                                                         Appendix D
MSHA Response to Draft Report


     U.S. Department of Labor                         Mine Safety and Health Adm1ntstration
                                                      11 00 Wilson Boulevard
                                                      Arlington, Virginia 22209-3939



        MAR 2 s 20U
         MEMORANDUM FOR ELLIOT P. LEWIS
                        Assistant Inspector General
                        for Audit


         FROM:                         JOSEPH A MAIN        (\
                                       Assistant Secretary of         ~Jr
                                                                               ~-A.:: Y'---
                                        for Mine Safety and Health

         SUBJECT:                      MSHA Response to OIG Draft Report- "MSHA Has Improved Its
                                       Roof Control Plan Review and Monitoring Process But Could Do
                                       More" No. 05-13-002-06-001

         MSHA reviewed your Draft Report MSHA Has Improved Its Roof Control Plan Review
         and Monitoring Process But Could Do More (05-13-002-06-001 ). We appreciate the
         opportunity to provide comments to the draft report.

         The "Results in Brief' section of the Report states that, "MSHA' s processes for
         reviewing, approving, and overseeing coal mine roof control plans have improved s ince
         our 2008 report ... " To put the Report in a proper context, MSHA believes it is important
         that the Report reflect the proactive actions the Agency has taken since the Crandall
         Canyon tragedy, which have improved roof/rib control safety for miners. It should also
         state these actions have resulted in a dramatic decline in roof/rib fatalities, roof/rib
         injuries, and roof falls. Your audit addressed administrative and record keeping issues
         and did not analyze or address the substance of the specific actions MSHA has
         undertaken since the 2007 Crandall Canyon tragedy and the improvements in miner
         safety that have resulted, which were significant. That should be noted in the report so
         that readers have a better understanding of the report and the context of the findings.
         MSHA believes it needs to continue to stay focused on the implementation of actions it
         has undertaken to protect the nation's miners and to sustain the improvements made,
         and intends to do so.

         MSHA compared the injury and fatality data associated with roof control hazards for the
         most recent five-year period , 2008-2012, to the previous two five-year periods. The
         comparison shows:

            •     There was one retreat mining roof-rib fatality in an underground bituminous coal
                  mine during 2008-2012, compared with 13 during 2003-2007. During the five­
                  year period prior to that, 1998-2002, there were 12 roof/rib fatalities during retreat
                  mining.
            •     There were 19 roof/rib fatalities during 2008-2012, compared with 37 during
                  2003-2007.



                You can now file your MSHA forms online at www MSHA.gov. It's easy, it's fast, and it saves you money!




                                                                                       Roof Control Plan Review & Monitoring
                                                                 21                         Report No. 05-13-002-06-001001
                                            U.S. Department of Labor – Office of Inspector General




   •   Comparing the 2003-2007 and the 2008-2012 periods, the number of roof fall
       injuries was reduced by 24% (a 38% reduction in the rate}, and the number of
       reportable non-injury roof falls was reduced by 24% (a 38% reduction in the rate).

These numbers reflect dramatic improvements in miner safety. The reduction in retreat
mining roof fall fatalities is a particularly historic accomplishment because prior to 2007 .
roof fall fatalities typically occurred each year. See chart below:

                                                                     Non-
                              Retreat
                                         Roof/Rib    Roof Fall      Injury    Underground
           Year              Roof Fall
                                          Fatals     Injuries        Roof     Hours Worked
                              Fatals
                                                                     Falls
        1998-2002               12          48          3542         7454       377,312,796
        2003-2007               13          37          2430        6806        392,844,874
        2008-2012                1          19          1852        5144       481 ,896,089
    %Reduction in
 Numbers 2003-2007 vs.         92%         49%          24%         24%        23% increase
      2008-2012
   % Reduction in Rate
                               94%         58%          38%         38%
 2003-2007 vs. 2008-2012
    % Reduction in
 Numbers 1998-2002 vs.         92%         60%          48%         31%
      2008-2012
   % Reduction in Rate
                               93%         69%          59%         46%
 1998-2002 vs. 2008-2012



In response to the OIG 2008 Report, MSHA took a number of actions to respond to the
Crandall Canyon mine disaster that contributed to these improvements. These actions
included: use of checklists for reviewing roof control plans, with a particular focus on
retreat mining ; improved evaluations of roof control plans; monthly inspections of all
retreat mining sections; and involvement of MSHA Technical Support in review of
complex and non-typical plans, primarily deep cover retreat mining plans.

Other actions MSHA has taken include:




                                             2




                                                               Roof Control Plan Review & Monitoring
                                             22                     Report No. 05-13-002-06-001001
                                      U.S. Department of Labor – Office of Inspector General




1. The increased enforcement of roof control regulations: 30 CFR §§75.200 and
   75.220(a)(1 ):


                                 Violations of     75.200
                      Year       75.220(a)111    Violations
                      2003           1,260         3,842
                      2004           1,583         4,547
                      2005           1,631         4,631
                      2006           1,913         5,463
                      2007           1,895         5,551
                      2008           2,616         7,594
                      2009           2,826         7,771
                      2010           2,350         7,328
                      2011           2,102         6,433
                      2012           1,891         5,855
                   2003-2007         8,282        24,034
                   2008-2012        11,785        34,981

                  %Reduction
                      (-)I
                  Increase(+)
                  in Numbers        + 42 "'o      +46%



2. MSHA took proactive efforts by including roof control specific training for
   inspectors and continuing training for roof control specialists on an annual basis,
   holding stakeholder outreach meetings, and raising the awareness of miners
   regarding roof control plans and roof/rib conditions. During the past two years,
   MSHA conducted eight seminars as part of its annual Preventive Roof I Rib
   Outreach Program (PROP). These seminars focused on preventing rib injuries,
   preventing roof bolter equipment related injuries, and reducing the number of roof
   falls related to issues such as weak roof in the Midwest and multiple seam mining
   in central Appalachia. In addition, MSHA conducted six hands-on computer
   training sessions on coal pillar design in a variety of coalfield locations.

3. MSHA issued policy directives that improved the quality of roof control plans and
   inspections. For example, in 2012 MSHA issued guidance for MSHA personnel
   in assessing the quality and potential safety risk associated with roof control
   plans, including evaluating the pillar design, mining technologies, and mining
   procedures for pillar recovery. Most recently, the Coal Mine Safety and Health
   General Inspection Procedures Handbook was revised to address
   recommendations identified by the Upper Big Branch Internal Review Report.
   The revised handbook now contains the requirements related to improved roof


                                        3




                                                           Roof Control Plan Review & Monitoring
                                        23                      Report No. 05-13-002-06-001001
                                         U.S. Department of Labor – Office of Inspector General




      control inspections and is scheduled to go into effect by April 2013. Appropriate
      inspector training has been conducted.

In your March 21, 2013, memorandum to me, you stated that the OIG performed this
follow-up audit to answer the following question:

      Have MSHA's actions in response to the OIG's 2008 audit report improved the
      coal mine roof control plan review, approval, and oversight processes?

As a result of the actions MSHA has taken and the significant improvements in mine
safety for miners, the answer to that question is clearly yes.

In summary, MSHA believes that the substantial efforts it has made since Crandall
Canyon have resulted in measurable improvements in roof control safety. MSHA does
not believe that the OIG Draft Report presents a complete record of the progress the
Agency has made since 2008.

MSHA's response to the Draft Report is attached.


Attachment




                                          4




                                                           Roof Control Plan Review & Monitoring
                                          24                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




                                                                                Attachment

               MSHA's Response to Specific Items in the Draft Report

It is important to reiterate that the OIG audit addresses administrative and
record keeping issues related to the approval of coal mine roof control plans. It did not
review the performance results related to miner safety following Crandall Canyon.

Results in Brief

MSHA's response to all issues addressed in the Results in Brief section of the Draft
Report is included in the Results and Findings section of this attachment.

RESULTS AND FINDINGS

Finding 1- CMS&H Districts used incomplete coal mine roof control plan SOPs.

District SOPs did not always include the 20 controls required by the Manual

   1. The Draft Report states on page 4:

   "MSHA 's Manual required that each District's SOPs address 20 controls
   necessary for proper administration of the roof control plan approval process.
   The Manual stated these 20 controls "must be developed and written for each
   District" and "accomplish the following [list of 20 controls]. " Senior MSHA officials
   told us these 20 controls were optional because the Manual said they should be
   "accomplished." However, we believe MSHA was arguing semantics and that the
   20 controls were mandatory."

MSHA Response: MSHA disagrees with the OIG's characterization that "MSHA was
arguing semantics" about whether the 20 controls are mandatory in SOPs. MSHA
believes that a regulatory agency has the responsibility to interpret its policies. It is
MSHA's position that the 20 controls are not mandatory. Section 111 Policy Manuals of
the Administrative Policy and Procedures Manual (APPM) states:

   "MSHA 's Program Policy Manual and Administrative Policy and Procedures
   Manual contain written policy and guidelines for Agency employees and
   compliance requirements for members of the mining community, such as
   operators, miners, and product manufacturers ... The Program Policy Manual
   contains policy concerning technical and enforcement programs of the Agency."
   (see pages 7-8)

All of the 20 controls are in fact satisfied outside of the written SOPs that the OIG
evaluated. For example, at least six of the controls relate to the "logging and tracking"
of roof control plans. All of CMS&H Districts make use of MSHA's MSIS computerized
tracking system, which satisfies the "logging and tracking" provision, whether or not it is


                                             5




                                                              Roof Control Plan Review & Monitoring
                                             25                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




mentioned in their written SOPs. Twenty of the 20 controls are fulfilled through the
consistent use of the Agency's checklists, transmittal sheet for roof control plan reviews
and approvals and Mine Plan Approval System which provides for systematic
administration of the District plan approval process.

MSHA acknowledges that the OIG's interpretation on the 20 management controls and
district SOPs differs from the Agency's. To avoid any future misunderstanding, the
Agency will clarify this guidance to CMS&H District Managers.

   2. The Draft Report states on Page 4:

   "However, in this follow-up audit, we found only 2 of the 12 Districts' SOPs
   included all 20 controls. On average, the Districts addressed only 16 of the 20
   minimum controls. MSHA issued a memorandum on June 6, 2008', setting forth
   the roof control plan approval process. The memorandum included various
   checklists for roof control plan reviews. MSHA told us these checklists
   addressed 12 of the 20 controls and partially met the Manual's 20-control
   requirement when used. • While this was true, the SOPs remained incomplete
   and did not comply with MSHA 's Manual since it required District SOPs to
   include all 20 controls. Moreover, MSHA considered the June 6, 2008,
   memorandum as optional guidance, not requiring compliance by the Districts."

MSHA Response: MSHA's analysis of the same data reveals that 5 of the 12 districts,
rather than 2, included all 20 controls in district SOPs or other management systems.
On average, Coal districts addressed 19 of the 20 management controls. MSHA
previously provided the OIG with Coal's Re-Analysis of the OIG's Exhibit A on
management controls with the Agency's justification for suggested changes.

The OIG states that "MSHA considered the June 6, 2008, memorandum as optional
guidance, not requiring compliance by the Districts" and misinterpreted MSHA's intent.
On November 24, 2008, the Administrator for Coal Mine Safety and Health issued a
clarification to the June 6 memo to District Managers.

   "Regulatory requirements, safety precautions, and best practices are included in the
   checklists and not intended to be a "one size fits all" approach. Consequently, not
   all the items are applicable to each and every mine and not mandatory. Please refer
   to CMS&H Memo No. HQ-08-059-A (PRT-75)."

District SOPs did not always include new or revised policies

   1. The Draft Report states on page 5:

   "Each District developed its own SOPs for reviewing roof control plans; however,
   MSHA Headquarters did not review or approve these District SOPs. Without
   Headquarters oversight, the various Districts' SOPs were often improperly



                                            6




                                                             Roof Control Plan Review & Monitoring
                                            26                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




   drafted because they were inconsistent, did not include all 20 controls, and relied
   on outdated criteria."

MSHA Response: We do not agree with the OIG's assertion that all district SOPs need
to be consistent, need to include all 20 controls, and need to be reviewed by MSHA
Headquarters. Please see the discussion that follows.

Districts develop SOPs to guide district work processes in the handling, review, and
approval of roof control plans. However, each District is unique due to its geographic
size and the predominant type of mines that it inspects. District organizational
structures vary to reflect these differences. District Managers implement SOP's and
management systems that address their specific needs, and not all 20
controls/elements are applicable to every District. District Managers, not Headquarters,
are responsible for the processing, review and approval of roof control plans as outlined
in 30 CFR §§ 75.220 - 75.223, Roof Control Plans.

MSHA Headquarters did provide necessary and appropriate oversight regarding how
each District evaluated the technical adequacy and completeness of roof control plans.
Headquarters guidance required each District, in approving plans, to: use the Best
Practice checklists; request assistance from Technical Support when appropriate; use
the MSIS logging and tracking system; and use standard plan transmittal routing sheets.
Use of this guidance has made roof control plans far more effective in keeping miners
safe, as evidenced by the data in the table on page 2 of this memorandum. MSHA
agrees that District SOPs and management systems should be updated to incorporate
new guidance, policies, and procedures on roof control. The Roof Control Plan
Approval Handbook, will be implemented by December 31 , 2013, and the Manual will
serve as a central policy repository to govern the approval process, and provide clarity
so as to avoid confusion.

Finding 2- District Managers could not support their rationale for all roof control
plan decisions.

   1. The Draft Report states Finding 2 on page 5:

MSHA Response: This finding as stated does not accurately convey the audit's
findings, that is, that "District Managers' rationale not always documented" as stated in
the Results in Brief section on page 2 of the draft report. MSHA believes that the OIG
analysis and audit report does not support this find ing and mischaracterizes the type of
documentation that was determined to be either incomplete or missing, i.e. missing
checklists, transmittal sheets, and as noted in Footnote 9 on page 6: "9 Incomplete
documentation consisted of items such as checkboxes not completed , missing
signatures, or other administrative controls." To support the rationale behind the
approval of the plan requires more than transmittal sheets and checklists and involves
more than checking a box on a checklist or signing a review. MSHA recommends that,
to avoid any confusion or inconsistency, the finding be changed and more accurately



                                            7




                                                             Roof Control Plan Review & Monitoring
                                            27                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




stated as "District Managers' rationale not always documented". Please see MSHA's
comments in response in the next section.

   2. The Draft Report states on page 5:

   "Despite MSHA 's efforts, the conditions we identified in 2008 still existed during
   the course of this audit. Of the 176 coal mine roof control plan decision files we
   reviewed, 31 (18 percent) had incomplete or missing transmittal sheets or
   checklists, meaning they lacked supporting documentation for the rationale
   behind roof control plan decisions. Three of the files we reviewed had 2 issues
   each, for a total of 34 exceptions. "

MSHA Response: As the OIG acknowledged, they did not review the roof control plans
to determine their effectiveness in controlling roof/rib fall hazards. The most important
objective MSHA focused on was implementing effective plans and proactive actions to
prevent mining deaths and injuries. MSHA believes that plans approved by the Agency
since the 2008 OIG audit have accomplished this desired objective.

Of the 176 coal mine roof control plan decision files that the OIG reviewed in this audit,
they state that 31 had incomplete or missing transmittal sheets or checklists. Six of the
31 had incomplete documentation consisting of missing signatures or initials, unmarked
checkboxes, or other missing documentation:

              In three files, the signatures and dates were all there; however one box
              was not checked for the recommended action by one person.
              In one file, the field office supervisor did not sign the 2000-204 form;
              however no deficiencies were reported by the inspector.
              In one file, the extended cut checklist was missing for a plan; however, the
              plan contained all the necessary precautions and had no deficiencies.
          •   Some districts were unable to locate six files missing documentation
              related to checklists. However, the districts went back into their files and
              confirmed that the evaluation of extended cu ts and quarterly and six­
              month reviews had been performed.
          •   One district used checklists to support the roof control plan addendum
              decisions, however, did not maintain checklists for 21 files. This practice
              has been corrected.

   3. The Draft Report states on page 6:

   "Additionally, of the 176 roof control plan submissions we reviewed, mine
   operators withdrew 13 and CMS&H Districts disapproved 20 (not included in the
   table above). CMS&H did not require District Managers to maintain supporting
   documentation for plans that had been withdrawn or disapproved. However, the
   Districts did not apply this policy consistently. We found documentation in about
   half (9 out of 20) of the disapproved cases. While we agree MSHA does not
   need to maintain documentation when an operator voluntarily withdraws its plan
   and while we make no formal recommendation to this effect, we believe

                                            8




                                                             Roof Control Plan Review & Monitoring
                                            28                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




   maintaining a written record of the decision-making process in disapproved
   cases would be beneficial. MSHA has no official record of the disapproval other
   than the letter it sends to the mine operator and no way to audit the
   decision-making process if the documentation is discarded after review."

MSHA Response: MSHA agrees that there is no requirement, in regulation or policy, to
document withdrawn or disapproved plans and we are pleased that the OIG did not
recommend documentation in 2008 and is not recommending documentation in this
draft report for these plans. It is important to note that MSHA guidance only requires
that records be retained for approved plans. CMS&H Memo No.HQ-08-059-A states "all
documentation (MSHA Form 2000-204, checklists, drawings, sketches, etc.) explaining
the rationale and supporting the decision of the roof control plan approval and
associated six-month plan review will be maintained as part of the roof control file for
that mine." Districts do not maintain copies of checklists and forms if operator roof
control plans are either withdrawn or disapproved , nor are they required to do so. We
do think it is important to emphasize that plans are sometimes withdrawn by the mine
operators prior to an MSHA review. It is unreasonable to expect MSHA to maintain any
written record other than an initial tracking sheet if there was no review conducted. For
disapproved plans, MSHA specifically lists the reasons in the disapproval letter to the
operator as to why the plan is being denied. That is considered the written record and
is maintained in the files. The regulations mandate in 30 CFR 75 .220(b)(2) that "When
approval of a proposed plan or revision is denied, the deficiencies of the plan or revision
and recommended changes will be specified and the mine operator will be afforded an
opportunity to discuss the deficiencies and changes with the District Manager."

Finding 3 - MSHA Enforcement Personnel Did Not Document All Required Roof
Control Plan Monitoring Activities.

   1. The Draft Report states on page 7:

   "We found enforcement personnel were not always documenting discussions
   with miners in their field notes. Of the 123 E01 inspection notes we reviewed,
   two-thirds did not document the enforcement personnel's discussion with miners
   about roof control plan training. Other issues included no documentation of
   discussions with miners regarding current mining activities and conditions; no
   evidence of supervisory reviews; and no evidence of the enforcement
   personnel's roof/rib observations. To its credit however, MSHA reviewed roof
   control plans during E01 inspections twice as often are required by law--four
   times per year."

MSHA Response: Based on the Agency's past enforcement practices, MSHA believes
that the OIG has stated a very literal interpretation of what is required in inspector notes
regarding questioning miners on roof control conditions and training . Based on that
interpretation , and the information that the OIG accepted, two-thirds of the inspectors'
notes reviewed did not explicitly document discussions with miners.



                                             9




                                                              Roof Control Plan Review & Monitoring
                                             29                    Report No. 05-13-002-06-001001
                                           U.S. Department of Labor – Office of Inspector General




When MSHA inspects a mining section, an inspector observes: roof conditions; the
mining cycle; cites violations observed (including roof control); and discusses concerns
miners may have with any plans, including the roof control plan and work practices.
MSHA believes that these actions by the inspector adequately address the OIG
recommendation dealing with questioning miners and addressing the adequacy of roof
control plans and the miners' training . Inspectors also mention in their notes whether
miners were knowledgeable about the roof control plan - again this is to reflect whether
the training was adequate. If the inspector's assessment is that the miner's training is
inadequate, an enforcement order is issued , and the miner is withdrawn, in accordance
with the Mine Act, until the operator is able to produce evidence that the withdrawn
miner has been trained. There are also instances where MSHA may not talk to miners
regarding roof control due to the nature of the inspection and the availability of miners.
Some of the required MSHA inspections occur in areas where no miners are working on
that particular day. In addition, the CMS&H memorandum of June 30, 2008 does not
require the level of specificity in the notes that the OIG recommends.

MSHA believes that additional clarification on E20 Technical Investigations is
necessary. An E20 investigation is similar to a spot inspection because the
investigation is directed to a specific purpose or area of the mine. E20 investigations are
directed specifically to roof control. Contrary to the OIG footnote 1 on page 3, an E20 Is
not conducted on an ad hoc basis. Due to the fact that these investigations are directed
to a specific purpose or area of the mine, they are usually short in duration with most
being completed in one day. It is not uncommon, because of the defined nature of
these investigations. that E20s occur in areas of the mine where miners do not normally
work or travel. Examples of these types of investigations would be the evaluation of the
support system utilized in a longwall tailgate entry or bleeder system, or an investigation
of a roof fall. During these investigation activities, the inspector may not generally come
in contact with anyone, and thus not be able to either discuss or question miners to
determine whether the roof control plan is adequate or to question miners to determine
whether their training on the roof control plan is complete and adequate.

MSHA acknowledges that there are instances where the questioning of miners and
documentation has not occurred. MSHA recently updated the Coal Mine Safety and
Health General Inspection Procedures Handbook and will implement the revised
handbook on April 1, 2013. The handbook has been updated to include the June 30,
2008 memorandum and coal mine inspectors were retrained on the requirements.

MSHA acknowledges that the June 30, 2008 guidance was unclear on E01 and E20
and the Agency will clarify this guidance, particularly as to E20 investigations.

RECOMMENDATIONS

   1. The Draft Report includes three recommendations on page 10:

   "We recommend the Assistant Secretary for Mine Safety and Health:



                                            10




                                                             Roof Control Plan Review & Monitoring
                                            30                    Report No. 05-13-002-06-001001
                                            U.S. Department of Labor – Office of Inspector General




     1. Develop a centralized policy and procedure process for all program areas that:
          • requires Districts to update SOPs for all new or revised guidance;
          • includes a review of new or updated District-issued SOPs; and
          • incorporates a periodic review of all Districts' SOPs to ensure they include
              all mandated policies;"

    2   Require Districts to immediately implement steps that ensure:
          • roof control plan files contain complete documentation to support the
             rationale for roof control plan decisions;
          • E01 and E20 documentation includes all required activities; and

    3. Ensure future training for roof control personnel involved in reviewing,
        approving, and monitoring roof control plans includes file documentation
       requirements and documentation of required discussions with miners.

MSHA Response: MSHA has undertaken a major overhaul of the agency's directives
system and reestablished, effective March 22, 2013. the centralized directives
management functions for maintaining and overseeing the Directives System in MSHA's
Office of Program Evaluation and Information Resources. MSHA will assess the best
approach to address district SOP's so as to streamline the guidance and not create
unnecessary burdens that detract from the Agency's mission and support improved
mine safety.

MSHA has expressed disagreement with the OIG that these management controls must
be included in district SOPs. As the Agency has discussed with the OIG, the
management controls are included in other written management systems in addition to
SOPs, such as the plan tracking system, plan transmittal sheets, and checklists. A
review of all district SOPs, as recommended by the OIG, is a major undertaking in a
time of limited resources. At the field level, SOPs are implemented for workflow and
can be as varied as certifying timesheets to plan reviews. This recommendation does
not make mines safer or the Agency's procedures more effective and efficient. Rather,
it diverts valuable Headquarters and field resources from mission-critical work-- that can
make mines safer-- to address administrative procedures. As noted, district SOPs are
the domain of the District Manager and do not require oversight of Headquarters staff.
However, in light of the concerns that OIG has raised, the Agency w ill revise the Manual
to clarify guidance on management controls and district SOPs.

MSHA agrees with Recommendation 2. To address this recommendation, the Agency
will revise instructions to the Districts to clarify the roof control documentation guidance
on E01 inspections and E20 technical investigations. The new Roof Control Handbook
and the revisions to the Program Policy Manual will be incorporated in the new MSHA
centralized administrative policy and procedures review system for directives. Ongoing
work to address the recommendations of the Upper Big Branch Internal Review Report
will also address some of the items in the OIG follow-up audit on Crandall Canyon .




                                             11




                                                               Roof Control Plan Review & Monitoring
                                             31                     Report No. 05-13-002-06-001001
                                         U.S. Department of Labor – Office of Inspector General




Recommendation 3. MSHA agrees with the spirit of this recommendation and, on an
annual basis, provides training to individuals who are involved in roof control plan
review and approval. The Agency will assess the best way to implement this
recommendation so as not to create unnecessary burdens that detract from the
Agency's mission and supports improved mine safety. The Agency has already
provided training to address the documentation requirements discussed in the OIG
report on roof control files and questioning miners.




                                         12




                                                          Roof Control Plan Review & Monitoring
                                          32                   Report No. 05-13-002-06-001001
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix E
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director),
Robert Swedberg (Audit Manager), Eric Rann, Charmane Miller, Aaron Talbert, John
Schick, Norlean Kelly, Kathleen Mitomi, and Mary Lou Casazza.




                                                      Roof Control Plan Review & Monitoring
                                        33                 Report No. 05-13-002-06-001001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
